No. 19-968
In the

Supreme Court of the United States
__________________

CHIKE UZUEGBUNAM, ET AL.,
Petitioners,
v.
STANLEY C. PRECZEWSKI, ET AL.,
Respondents.
__________________
On Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit

__________________

AMICI CURIAE BRIEF OF JUSTICE AND
FREEDOM FUND, STUDENTS FOR LIFE OF
AMERICA, RATIO CHRISTI, YOUNG
AMERICA’S FOUNDATION, AND TURNING
POINT USA SUPPORTING PETITIONERS
__________________
DEBORAH J. DEWART
620 E. Sabiston Drive
Swansboro, NC 28584-9674
(910) 326-4554
debcpalaw@earthlink.net

JAMES L. HIRSEN
Counsel of Record
505 S. Villa Real Drive
Suite 101
Anaheim Hills, CA 92807
(714) 283-8880
james@jameshirsen.com

Counsel for Amici Curiae

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY
OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

STUDENT AMICI HAVE CHALLENGED A
VARIETY OF UNCONSTITUTIONAL
CAMPUS POLICIES ACROSS THE
NATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. Unconstitutional speech zones and
permitting policies may only generate
nominal damages rather than out-ofpocket costs that can be alleged or
recovered as damages . . . . . . . . . . . . . . . . 6
B. Some permit requirements also
necessitate payment of a “security fee” by
the student group hosting an event . . . . . 9
C. Unfettered discretion, leading to
constitutionally prohibited viewpoint
discrimination, is a common theme in
Student Amici challenges . . . . . . . . . . . . 10

II.

REMEDIES FOR NOMINAL DAMAGES
ARE IMPORTANT TO FACILITATE
REVISION OF UNCONSTITUTIONAL
POLICIES ON CAMPUS AND DETER
FUTURE VIOLATIONS . . . . . . . . . . . . . . . . 13

ii
A. Nominal damages confer prevailing party
status entitling the plaintiff to attorney
fees–a powerful remedy to deter future
violations . . . . . . . . . . . . . . . . . . . . . . . . . 14
B. Remedies for completed constitutional
violations expedite lasting policy changes
that ensure free expression in the
future, regardless of the type of amount of
damage . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
C. Successful litigation may trigger
legislative changes that facilitate free
expression in the future, regardless of the
type of amount of damages . . . . . . . . . . 17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iii
TABLE OF AUTHORITIES
Cases
Elrod v. Burns,
427 U.S. 347 (1976). . . . . . . . . . . . . . . . . . . . . . . . 3
Farrar v. Hobby,
506 U.S. 103 (1992). . . . . . . . . . . . . . . . . . . . . . . 14
Forsyth County v. Nationalist Movement,
505 U.S. 123 (1992). . . . . . . . . . . . . . . . . . . . . . . . 6
Matal v. Tam,
137 S. Ct. 1744 (2018). . . . . . . . . . . . . . . . . . . . . 11
Reno v. American Civil Liberties Union,
521 U.S. 844 (1997). . . . . . . . . . . . . . . . . . . . . . . 10
Turning Point USA at Ark. State University v.
Rhodes, 2020 U.S. App. LEXIS 27635
(8th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
United States v. Grace,
461 U.S. 171 (1983). . . . . . . . . . . . . . . . . . . . . . . . 6
Ward v. Rock Against Racism,
491 U.S. 781 (1989). . . . . . . . . . . . . . . . . . . . . . . . 6
Statutes
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
42 U.S.C. § 1988(b). . . . . . . . . . . . . . . . . . . . . . . . . . 14
Ark. Code Ann. § 6-60-1001-1010 . . . . . . . . . . . . . . 17
Ark. Code Ann. § 6-60-1006 . . . . . . . . . . . . . . . . . . . 17
Ark. Code Ann. § 6-60-1009 . . . . . . . . . . . . . . . . . . . 18

iv
Other Authorities
Apodaca, Students for Life at California State
University San Marcos v. White, Case 3:17-cv01014-L-NLS, filed May 17, 2017 (S.D.
California) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 15
Chemeketa Students for Life v. Members of the
Chemeketa Board of Education, Case No. 6:20cv-00742-MC, filed May 5, 2020 (D. Ore.) . . . 7, 16
https://www.adflegal.org/blog/these-3-stats-showwhy-colleges-must-be-held-responsible-violatingstudents-rights . . . . . . . . . . . . . . . . . . . . . . . 5, 16
Queens College Students for Life v. Members of the
City University of New York Board of Trustees,
Case 1:17-cv-00402, filed January 25, 2017 (E.D.
New York) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Ratio Christi at the University of Colorado,
Colorado Springs v. Sharkey, Case 1:18-cv02928, filed November 14, 2018 (D. Colo.). . . . . 12
Ratio Christi of Kennesaw State University v. Olens.
Case 1:18-cv-00956-TWT, filed March 15, 2018
(N.D. Ga.) . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7, 15
Students for Life at Miami University of Ohio,
Hamilton v. Trustees of Miami University of
Ohio, Case No. 1:17-cv-00804-TSB, filed
November 29, 2017 (S.D. Ohio) . . . . . . . . . . . . . . 7
Turning Point USA at Grand Valley State
University v. The Trustees of Grand Valley State
University, Case 1:16-cv-01407, filed December
7, 2016 (W.D. Mich.) . . . . . . . . . . . . . . . . . . . . . . . 8

v
Turning Point USA at Macomb Community College
v. Macomb Community College, Case 2:17-cv12179-BAF-DRG, filed August 24, 2017 (E.D.
Mich.). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 15
Young Americans for Freedom v. University of
Florida, Case 1:18-cv-00250-MW-GRJ, filed
December 21, 2018 (N.D. Fla.) . . . . . . . . . . . 12, 15
Young Americans for Freedom of Kennesaw State
University v. Harmon, Case 1:18-cv-00956-TWT,
Filed March 5, 2018 (N.D. Ga.) . . . . . . . . . . . . . . 9
Young America’s Foundation v. Covino, Case 2:16cv-03474, filed May 19, 2016 (C.D. Calif.) . . . . . 10

1
INTEREST OF AMICUS CURIAE1
Amici curiae respectfully submit that the decision
of the Eleventh Circuit Court of Appeals should be
reversed.
Justice and Freedom Fund is a California nonprofit, tax-exempt corporation formed on September 24,
1998 to preserve and defend the constitutional liberties
guaranteed to American citizens, through education,
legal advocacy, and other means. JFF's founder is
James L. Hirsen, professor of law at Trinity Law
School and Biola University in Southern California and
author of New York Times bestseller, Tales from the
Left Coast, and Hollywood Nation. Mr. Hirsen is a
frequent media commentator who has taught law
school courses on constitutional law. Co-counsel
Deborah J. Dewart is the author of Death of a
Christian Nation (2010). JFF has made numerous
appearances in this Court as amicus curiae.
Justice and Freedom Fund is joined by several
organizations that maintain student groups (“Student
Amici”) in colleges and universities across the nation.
All of these groups disseminate information about
urgent contemporary issues, implicating First
Amendment rights to freedom of speech. Student Amici
write to inform the Court about the free speech
challenges they have faced and successfully litigated.

1

The parties have consented to the filing of this brief. Amici curiae
certify that no counsel for a party authored this brief in whole or
in part and no person or entity, other than amici, their members,
or their counsel, has made a monetary contribution to its
preparation or submission.

2
Students for Life of America is the nation’s
largest pro-life student organization with groups on
over 1,240 high schools and college campuses across
the country. Student groups may offer information
about abortion, local pregnancy centers, and other
resources for pregnant students. See https://studentsf
orlife.org.
Ratio Christi is a Christian apologetics campus
ministry that seeks to intellectually defend the
Christian faith and provide biblical perspective on
current cultural, ethical, and political issues. See
https://ratiochristi.org.
Young America’s Foundation is a 501(c)(3) nonprofit, educational organization whose mission is to
educate and inspire increasing numbers of young
Americans concerning the ideas of individual freedom,
a strong national defense, free enterprise, and
traditional values. The Foundation accomplishes its
mission by providing essential conferences, seminars,
educational materials, internships, and speakers to
young people across the country. YAF also maintains
and operates the Reagan Ranch, the National
Journalism Center, the Center for Entrepreneurship &
Free Enterprise, and operates hundreds of chapters at
high schools and universities all across the nation.
Consistent with its tax status, YAF stands resolute as
a strictly non-partisan organization dedicated to the
ideas and principles of the American founding,
providing an abiding, faithful guide for young
Americans here in the 21st century and beyond. See
www.yaf.org.

3
Turning Point USA is a 501(c)(3) non-profit
organization whose mission is to identify, educate,
train, and organize students to promote freedom. See
www.tpusa.com.
INTRODUCTION AND SUMMARY OF THE
ARGUMENT
Student Amici seek to exercise their rights to free
expression through signs, flyers, pamphlets, images,
peaceful demonstrations, information tables, and
hosting events on campus with invited guest speakers.
They write to draw the Court’s attention to their
experiences with a variety of unconstitutional
restraints on their fundamental rights to free speech
and association. The roadblocks to free student speech
on campus have spawned legal challenges from coast to
coast, including California, Oregon, Michigan, Ohio,
Arkansas, Colorado, Georgia, Florida, and New York.
These states represent all the circuits in the three-way
split identified by Petitioners—the Second, Sixth,
Eighth, Ninth, Tenth, and Eleventh. Many of Student
Amici’s cases have been successfully settled, generating
policy changes that will preserve free expression for
future students and even triggering new legislation.
This Court has expressed a high regard for
constitutional liberties. Even the smallest loss is
worthy of a judicial remedy. "The loss of First
Amendment freedoms, for even minimal periods of
time, unquestionably constitutes irreparable injury."
Elrod v. Burns, 427 U.S. 347, 373 (1976). The high
value this Court assigned to First Amendment liberties
in Elrod supports Petitioners’ argument that the
government’s post-filing change of an unconstitutional

4
policy does not moot a nominal-damages claim to
vindicate the government’s past, completed
constitutional violation.
Unconstitutional campus policies follow several
common patterns. Some, like Georgia Gwinett College,
quarantine speech to a tiny “speech zone” on campus.
Many impose unreasonable permit requirements,
including advance permission to speak and even the
obligation to disclose the content of the students’
expression. Although some permit requirements
include the payment of a “security fee,” these policies
do not necessarily impose a financial cost that can be
alleged as compensatory damages.
A decision in favor of Petitioners will enhance the
ongoing ability of groups like Student Amici to settle
lawsuits quickly, protecting free expression on campus
and limiting the opportunity for government school
officials to manipulate the system.
ARGUMENT
I.

STUDENT AMICI HAVE CHALLENGED A
VARIETY OF UNCONSTITUTIONAL
CAMPUS POLICIES ACROSS THE
NATION.

The cumulative experiences of Student Amici
demonstrate that many American colleges and
universities have become a “marketplace of restraints”
riddled with constitutional flaws rather than the
quintessential “marketplace of ideas” they were
intended to be. Speech is restricted to ridiculously tiny
“speech zones” representing a miniscule percentage of
the campus. Advance “permission slips” impose

5
unconstitutional prior restraints on student speech.
Viewpoint discrimination proliferates as officials
exercise unfettered discretion to censor “offensive”
speech or discriminate in the recognition of student
groups and/or funding for their events. This all needs
to stop, whether damages are counted in dollars or the
loss of precious First Amendment freedoms. A high
percentage of college campus free speech cases hinge on
nominal damages claims. Many or perhaps even most
student speakers would be left without a legal remedy
if nominal damages are insufficient to support their
claims.2
Today’s college students are tomorrow’s voters,
community leaders, lawyers, judges, and legislators.
Free speech is essential to a free society that preserves
the liberties enshrined in the U.S. Constitution—
especially the First Amendment. Student Amici have
made a valuable contribution to protecting these
freedoms through their litigation efforts.

2

“Out of 60 cases that ADF has filed challenging speech zones,
speech codes, or student group recognition policies, only 7 of those
cases—or 11.7 percent—resulted in payment of compensatory
damages.” https://www.adflegal.org/blog/these-3-stats-show-whycolleges-must-be-held-responsible-violating-students-rights (last
visited 09/25/20). This means that nearly 90 percent of those cases
rest on nominal damages.

6
A.

Unconstitutional speech zones and
permitting policies may only
generate nominal damages rather
than out-of-pocket costs that can be
alleged or recovered as damages.

Free speech is not a virus that must be quarantined.
The real “virus” is the rampant viewpoint
discrimination seen in cases brought against
unconstitutional university campus policies, as Student
Amici’s challenges demonstrate. These policies are far
outside the “reasonable time, place, or manner
restrictions” that may lawfully be imposed under
specified circumstances. Ward v. Rock Against Racism,
491 U.S. 781, 792 (1989). A permit scheme imposing
such restrictions “must not be based on the content of
the message, must be narrowly tailored to serve a
significant governmental interest, and must leave open
ample alternatives for communication. See United
States v. Grace, 461 U.S. 171, 177 (1983).” Forsyth
County v. Nationalist Movement, 505 U.S. 123, 130
(1992). Some colleges establish “speech zones” that
represent a tiny percentage of the total campus and
severely restrict communication. These “quarantines,”
often coupled with unfettered discretion and blatant
viewpoint discrimination, are horribly unconstitutional
but typically do not generate financial damages that
can be alleged in a lawsuit.
Ratio Christi encountered a tiny “speech zone,”
much like the one at issue in this Petition, that exiled
a pro-life display to an area comprising less than 0.08
percent of a 405-acre Georgia campus. Ratio Christi of
Kennesaw State University v. Olens, Case 1:18-cv-

7
00956-TWT, filed March 15, 2018 (N.D. Ga.). This
lawsuit was settled and included the university’s
payment of $20,100 to cover the costs of litigation. But
if the case had continued without that settlement—and
only nominal damages—it could have gone up on
appeal to the Eleventh Circuit and been subject to the
same mootness analysis at issue in this Petition.
Extreme speech quarantines are similarly evident
in other challenges litigated by Student Amici. This
past May 2020, Students for Life filed suit in the
District of Oregon to challenge Chemeketa Community
College’s policy limiting free speech to two small areas
that occupy about 1.5% of the 100-acre campus.
Chemeketa Students for Life v. Members of the
Chemeketa Board of Education, Case No. 6:20-cv00742-MC, filed May 5, 2020 (D. Ore.). In addition to
this draconian restriction on the space where speech
may occur, the policy requires permission two weeks in
advance for all outdoor expressive activities. This
burdensome system prevented students from handing
out fliers between classes for an indoor event about the
morality of physician-assisted suicide that had already
been approved and scheduled. Students for Life
encountered similar obstacles at the Miami University
of Ohio, where a complex permit system required them
to post “trigger warnings” about their pro-life displays
that might cause “emotional trauma” to viewers. The
students sued after university officials shut down their
annual Cemetery of the Innocents display. Students for
Life at Miami University of Ohio, Hamilton v. Trustees
of Miami University of Ohio, Case No. 1:17-cv-00804TSB, filed November 29, 2017 (S.D. Ohio).

8
Turning Point USA students have wrestled with
speech zones and permits in Michigan. Grand Valley
State University had a policy limiting speech to two
small zones that comprise less than 0.03 percent of the
campus. University officials told Turning Point USA
chapter members they could not speak to other
students about the First Amendment and have them
write messages on a large beach ball dubbed a “free
speech ball” because the members were not standing in
one of the two tiny zones. Campus police and
administrators threatened that students would be
arrested for trespassing if they continued their
expressive activities. Turning Point USA sued the
university. Turning Point USA at Grand Valley State
University v. The Trustees of Grand Valley State
University, Case 1:16-cv-01407, filed December 7, 2016
(W.D. Mich.). Officials promptly implemented policy
revisions and a stipulated dismissal was filed on March
1, 2017. Meanwhile, Turning Point USA students at
another Michigan institution, Macomb Community
College, challenged a policy that banned all public
expression without a permit and even then assigned
speakers to a tiny speech zone that made up
approximately .001 percent of campus, limiting
students’ ability to communicate effectively. Turning
Point USA at Macomb Community College v. Macomb
Community College, Case 2:17-cv-12179-BAF-DRG,
filed August 24, 2017 (E.D. Mich.). This lawsuit was
also settled quickly, with the college agreeing to
suspend the challenged policies and adopt permanent
revisions by the end of the semester, in addition to
paying damages and attorney fees.

9
B.

Some permit requirements also
necessitate payment of a “security
fee” by the student group hosting an
event.

Young Americans for Freedom have fought
unconstitutional “security fees” in both Georgia and
California. In Young Americans for Freedom of
Kennesaw State University v. Harmon, Case 1:18-cv00956-TWT, Filed March 5, 2018 (N.D. Ga.), university
officials had complete discretion to impose
unconstitutional “security fees” for any event they
considered “controversial.” They imposed a fee on YAF
students for an event they hosted featuring
conservative speaker Katie Pavlich. The students’ case
was filed and settled in 2018, with the school agreeing
to adopt a new policy that clearly outlines when and
how security fees can be charged. This is the same
university Ratio Christi sued—the same year—over a
“speech zone” that severely restricted their ability to
exhibit a pro-life display.
In February 2016, conservative Ben Shapiro was
scheduled to give a presentation at California State
University–Los Angeles as part of a free speech event
that Young America’s Foundation and the Cal
State–L.A. chapter of Young Americans for Freedom
had organized. University officials attempted to shut
down the event—but when those efforts failed,
professors helped incite a mob of protestors to block
entry to the venue where Shapiro was
speaking—ironically—about free speech and diversity.
It took a lawsuit to bring about needed changes to the
unconstitutional policies that enabled this censorship.

10
Young America’s Foundation v. Covino, Case 2:16-cv03474, filed May 19, 2016 (C.D. Calif.). One of those
policies was a “security fee” charged for events school
officials considered “controversial.”
In its Oregon case (filed in May 2020) against
Chemeketa Community College, Students for Life is
battling a requirement to estimate and pay a security
fee to control disruptive protests intended to drown out
their message, in addition to the extreme space
restrictions and permit requirements described above.
Such a policy, essentially forcing peaceful speakers to
finance a “heckler’s veto,” would “confer broad powers
of censorship” on both officials and protesters. Reno v.
American Civil Liberties Union, 521 U.S. 844, 880
(1997).
C.

Unfettered discretion, leading to
constitutionally prohibited viewpoint
discrimination, is a common theme in
Student Amici challenges.

One of the hallmarks of unconstitutional speech
suppression is a law or policy that grants “unfettered
discretion” to government officials to determine how,
when, or where a speaker may speak—or worse yet,
what that speaker may say. All Student Amici have
experienced this sort of censorship on campuses across
the nation, including policies related to registration of
student organizations, mandatory student fees, and
distribution of funding for these groups.
Students for Life has experienced the impact of
viewpoint discrimination in Ohio, California, and New
York. Miami University of Ohio required them to post

11
“trigger warnings,” i.e., signs warning others about
their pro-life displays. But as this Court recently held,
“[s]peech may not be banned on the ground that it
expresses ideas that offend.” Matal v. Tam, 137 S. Ct.
1744, 1751 (2018). California State University–San
Marcos officials denied SFL $500 in funding to host a
visiting speaker on “Abortion and Human Equality” yet
granted nearly $300,000, using mandatory student
fees, to fund the Gender Equity and the LGBTQA Pride
Center. Apodaca, Students for Life at California State
University San Marcos v. White, Case 3:17-cv-01014-LNLS, filed May 17, 2017 (S.D. California). It is blatant
viewpoint discrimination for the university to force
students to pay for advocacy of views the university
decides are orthodox while excluding funding for
competing views. At Queens College in New York, SFL
was denied “registered” status, which would have
allowed the group to join more than 100 student
organizations—including pro-abortion clubs—allowed
to reserve meeting space, invite speakers, and receive
funding from mandatory student activity fees. Queens
College Students for Life v. Members of the City
University of New York Board of Trustees, Case 1:17-cv00402, filed January 25, 2017 (E.D. New York).
Turning Point USA students successfully fought a
similar policy at Macomb Community College in
Michigan. The college’s policy banned all public
expression without a permit from an administrator—
who had unrestricted authority to grant or deny
requests.
Young Americans for Freedom have faced viewpoint
discrimination in Florida and Georgia, both states
within the Eleventh Circuit. The University of Florida

12
failed to distribute money collected from mandatory
student fees to student organizations in a fair,
viewpoint-neutral manner, prompting a lawsuit from
the Young Americans for Freedom chapter on campus.
Young Americans for Freedom v. University of Florida,
Case 1:18-cv-00250-MW-GRJ, filed December 21, 2018
(N.D. Fla.). Funding was denied when YAF requested
it to host conservative speakers but granted to groups
inviting more progressive speakers. After being sued,
the school revised its policies and settled the litigation
in 2019. In Georgia, where YAF battled Kennesaw
State University over its burdensome “security fees,”
the school established a four-tiered system that
classified registered student organizations and
assigned privileges according to viewpoints officials
favored (or disfavored). The higher the classification,
the greater the access to the best areas of the campus
and student funding. No conservative groups achieved
a status higher than the “recognized” tier—the lowest
level.
Ratio Christi, a Christian apologetics organization,
has faced viewpoint discrimination in both Colorado
and Georgia. The University of Colorado, Colorado
Springs refused to grant the group registered status
because of its requirement that student leaders share
its religious beliefs. The university’s denial limited its
access to funding, meeting and event space, and
administrative support. Ratio Christi at the University
of Colorado, Colorado Springs v. Sharkey, Case 1:18-cv02928, filed November 14, 2018 (D. Colo.). The lawsuit
prompted the school to update its policies to ensure
that a student club may require its leadership to
promote the purposes of the club and hold beliefs

13
consistent with the group’s mission. In Georgia, where
Kennesaw State University relegated Ratio Christi’s
pro-life display to a tiny “speech zone” on campus (see
Sect. IA), officials had unrestricted discretion to grant,
deny, or modify a student organization’s reservation
request even for unconstitutional reasons. The lack of
guidelines allowed them to “quarantine” speech they
deemed “controversial” to a small, less-accessible
speech zone. Georgia is in the Eleventh Circuit where,
under existing precedent, it could be difficult to
vindicate this type of constitutional violation if it
results in only nominal damages.
II.

REMEDIES FOR NOMINAL DAMAGES
ARE IMPORTANT TO FACILITATE
REVISION OF UNCONSTITUTIONAL
POLICIES ON CAMPUS AND DETER
FUTURE VIOLATIONS.

The Eleventh Circuit’s treatment of nominal
damages enables colleges and universities to perpetrate
unconstitutional speech policies without facing serious
consequences. Without nominal damages, schools can
cleverly craft their policies to impose restraints on free
speech while avoiding monetary costs to students. They
can also prolong litigation to moot a case in progress,
thereby avoiding consequences and continuing their
unconstitutional policies.

14
A.

Nominal damages confer prevailing
party status entitling the plaintiff to
attorney fees—a powerful remedy to
deter future violations.

Reasonable attorney fees may be awarded to
vindicate constitutional rights violations. 42 U.S.C.
§§ 1983, 1988(b). This is true regardless of whether
damages are financial or nominal. “[A] plaintiff who
wins nominal damages is a prevailing party
under § 1988.” Farrar v. Hobby, 506 U.S. 103, 112
(1992). Attorney fee awards may be substantial and
often dwarf the student plaintiffs’ out-of-pocket costs.
Many cases in this context are litigated without
charge to the student plaintiffs, through the efforts of
nonprofit legal defense organizations that rely on
donations. Attorney fee recovery enables the ongoing
defense of constitutional rights and gives schools an
incentive to maintain constitutional policies that do not
chill free speech or violate other First Amendment
rights.
Each of the Student Amici has had at least one case
that generated attorney fees as part of its settlement
with a college or university. For example:

15
Student Amici

Award

Students for Life

$240,000 January 31, 2020

Date Settled

Apodaca v. White
Young America Fdn.

$66,000

July 31, 2019

Young Americans for Freedom v. University of
Florida
Turning Point USA

$10,000

November 8, 2017

Turning Point USA at Macomb Community College v.
Macomb Community College
Ratio Christi

$20,100

October 19, 2018

Ratio Christi of Kennesaw State University v. Olens
Attorney fee awards put “teeth” into settlement
agreements, encouraging schools to maintain
constitutionally acceptable policies on campus.
B.

Remedies
for
completed
constitutional violations expedite
lasting policy changes that ensure
free expression in the future,
regardless of the type or amount of
damages.

Students for Life has an ongoing case against the
Chemeketa Board of Education (filed in May 2020) that
demonstrates the devious strategies employed by
schools. In 2011, Chemeketa College revised its “Free
Speech Guidelines” to correct policies that violated the

16
First Amendment. But in 2019—eight years later—the
school reverted to its previous unconstitutional policy
that granted discretion to administrators to decide who
may speak on campus. Chemeketa Students for Life,
Case No. 6:20-cv-00742-MC, filed May 5, 2020 (D.
Ore.), Verified Complaint, ¶¶ 139–154. This type of
government discretion inevitably leads to
unconstitutional viewpoint discrimination. Students
should be able to concentrate on their studies and
exchange ideas freely on campus without having to sue
their college over unconstitutional speech policies. Yet
many institutions refuse to revise their policies until a
lawsuit is filed.3 As Chemeketa Students for Life
illustrates, some universities must be sued more than
once over the same unconstitutional policy.4
The Eleventh Circuit’s approach creates the danger
that a school may revise its policy in response to a
student challenge, as Chemeketa College did in 2011,
but later revert to its old unconstitutional ways. If
courts must recognize nominal damages for completed
constitutional violations, prevailing party status can be

3

“In 81 percent of the lawsuits that ADF has filed against public
colleges or universities, the institution agreed to modify the
unconstitutional policy only after the lawsuit was filed.”
https://www.adflegal.org/blog/these-3-stats-show-why-collegesmust-be-held-responsible-violating-students-rights (last visited
09/25/20).

4

“ADF has sued 8 universities or university systems more than
once—and 4 of those lawsuits involved the exact same policy.”
https://www.adflegal.org/blog/these-3-stats-show-why-collegesmust-be-held-responsible-violating-students-rights (last visited
09/25/20).

17
established, attorney fees may be recovered—and the
school will have a strong incentive to maintain
constitutional policies.
C.

Successful litigation may trigger
legislative changes that facilitate
free expression in the future,
regardless of the type or amount of
damages.

Courts cannot legislate, but litigation may raise
awareness of important issues that should be
addressed through legislation. That happened in a case
Turning Point USA students filed in Arkansas after
university officials kicked a student off the patio in
front of the Student Union for setting up a table to
promote a new student chapter on campus. Turning
Point USA at Ark. State Univ. v. Rhodes, 2020 U.S.
App. LEXIS 27635 (8th Cir. 2020). The lawsuit
prompted Arkansas legislators to enact the Forming
Open and Robust University Minds (FORUM) Act. See
Ark. Code Ann. §§ 6-60-1001 to 1010. The Act protects
free expression on campus and prohibits the restrictive
policies Turning Point students experienced. It
expressly protects student organizations from
discrimination based on the organization’s expression,
including requirements that group leaders support the
organizational mission, affirm the organization’s
beliefs, and/or comply with a code of conduct. Ark. Code
Ann. § 6-60-1006. Although the Eighth Circuit held
that officials had qualified immunity because the
unconstitutionality of the school’s unwritten “Tabling
Policy” was not clearly established, the FORUM Act
now provides remedies, including injunctive relief,

18
attorney fees, and expenses. Ark. Code Ann. § 6-601009.
CONCLUSION
Amici urge this Court to reverse the decision of the
Eleventh Circuit Court of Appeals and confirm that the
government’s post-filing revision of an unconstitutional
policy does not moot a nominal damages claim that
vindicates the government’s past, completed
constitutional violations of a plaintiff’s constitutional
rights.
Respectfully submitted,
DEBORAH J. DEWART
620 E. Sabiston Drive
Swansboro, NC 28584-9674
(910) 326-4554
debcpalaw@earthlink.net

JAMES L. HIRSEN
Counsel of Record
505 S. Villa Real Drive
Suite 101
Anaheim Hills, CA 92807
(714) 283-8880
james@jameshirsen.com

Counsel for Amici Curiae

